<html>
<title> - CENTERS FOR FAITH-BASED AND COMMUNITY INITIATIVES: PROMISE AND PROGRESS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





CENTERS FOR FAITH-BASED AND COMMUNITY INITIATIVES: PROMISE AND PROGRESS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2004

                               __________

                           Serial No. 108-194

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-779                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2004...................................     1
Statement of:
    Lynn, Rev. Barry, executive director, Americans United for 
      the Separation of Church and State; Holly Hollman, general 
      counsel, Baptist Joint Committee; Nathan Diament, director 
      of public policy, Union of Orthodox Jewish Congregations of 
      America; Rev. Wilson Goode, senior advisor on faith-based 
      initiatives for Public/Private Ventures; and Steve 
      Fitzhugh, director, the House..............................    13
    Sherman, Dr. Amy, director, Hudson Institute Faith-in-
      Communities Program........................................    85
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     9
    Diament, Nathan, director of public policy, Union of Orthodox 
      Jewish Congregations of America, prepared statement of.....    56
    Goode, Rev. Wilson, senior advisor on faith-based initiatives 
      for Public/Private Ventures, prepared statement of.........    76
    Hollman, Holly, general counsel, Baptist Joint Committee, 
      prepared statement of......................................    44
    Lynn, Rev. Barry, executive director, Americans United for 
      the Separation of Church and State, prepared statement of..    16
    Sherman, Dr. Amy, director, Hudson Institute Faith-in-
      Communities Program, prepared statement of.................    87
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4

 
CENTERS FOR FAITH-BASED AND COMMUNITY INITIATIVES: PROMISE AND PROGRESS

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder and Cummings.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Elizabeth Meyer, professional staff member and 
counsel; Nicole Barrett, clerk; Tony Haywood, minority counsel; 
Denise Wilson, minority professional staff member; and Jean 
Gosa, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order. Thank you 
all for coming today. This is part of a long series of faith-
based hearings we have been having; many out around the country 
listening to practitioners. The debate over the role of these 
State-based organizations and the provision of social services 
continue to be as heated today as it was 3 years ago when the 
President announced the creation of the White House Office of 
Faith-Based and Community Initiatives.
    Even as the debate continues, what we know for certain is 
this: The need for social services will never be fully met. The 
government acting alone cannot begin to meet the needs of the 
countless men and women who are facing addiction, homelessness, 
hunger or illness.
    Many faith-based and community organizations across our 
Nation understand that they have a duty to help those who are 
less fortunate than they are. We are a Nation richly blessed 
not only with government resources but also with caring 
individuals who dedicate their lives to helping others. Through 
charitable choice and the faith-based initiative, the 
government has recognized the tremendous resource it has in its 
faith community and in its neighborhood-based organizations. 
These groups have the ability to reach out to men and women 
that the government may never know exists.
    We know that for decades the government has worked with 
large faith-based organizations like Catholic Charities and 
Lutheran Social Services to provide care to those in need. The 
faith-based initiative is designed to bring neutrality to the 
government grant system so that smaller community and faith-
based organizations can expand their capacity to help people in 
their communities that otherwise might be overlooked.
    Neutrality toward all applicants requires that the 
government partner only with secular organizations, in effect 
recognizing a State-sponsored secularism. But it demands that 
government look at the merits of each program. Is the program 
helping substance abusers kick addiction? Is it helping a 
homeless woman find a job or a home? Is the program making a 
difference in the life of a child who has lost a parent to 
prison?
    The government does have a responsibility to ensure that 
its dollars are being spent in a manner consistent with the 
Constitution. This is why technical assistance in education are 
key elements of the faith-based initiative. Every organization 
has a responsibility to think carefully about whether a 
government grant is a good thing for their organization before 
they apply. Organizations like the FASTEN have produced 
training and educational materials for faith-based and 
community organizations that include a list of questions that 
organizations should think carefully about before they decide 
to jump into the fray of competing for government grants, as 
well as information on what due diligence will require as they 
administer a grant. The White House also instructs potential 
applicants to consider carefully what a partnership with the 
government will mean to their organization. In terms of 
financial aid, I believe the most effective way that government 
can assist faith-based and community organizations is through 
tax credits and vouchers. These forms of aid reduce 
significantly government intrusion into the daily operation of 
the provider, and puts the choice of which program to use and 
where to send private contributions into the hands of men and 
women who need services and who want to support a social 
ministry with their personal dollars.
    For some time we have heard opponents of the government 
partnership say faith-based organizations have long had the 
ability to partner with the Federal Government. All they need 
to do is form a separate 501(c)(3) and conduct themselves as 
though they were secular and there is no problem. But we are 
starting to see that even if the faith-based organization takes 
the precaution of forming a separate organization to handle 
those social services it desires to provide, that everything 
may in fact not be all right. Catholic Charities is an 
organization that for decades has been held up as an example, 
even by critics of the faith-based initiative, of how 
government partnerships with faith-based organizations are 
working, because they held the service arm of the organization 
under a separate incorporated organization. Now the California 
Supreme Court has said that because Catholic Charities offers 
secular services to clients, the majority of whom are not 
Catholic and not directly preach Catholic values, it is not a 
religious organization for the court's purposes and therefore 
must provide services contrary to Catholic teachings. This 
intrusion into the right of an organization to define its very 
identity should frighten leaders of all organizations, faith 
based and community alike.
    This case illustrates the danger we face when government 
attempts to intrude upon the right of a religious organization 
to define itself. Not all faith-based organizations hire only 
members of the same faith, but the vast majority of faith-based 
organizations desire to hire employees who embody the mission 
of that organization. It has been argued that if providing 
services to individuals of all faiths does not alter the 
integrity of a faith-based organization, neither should a 
requirement that a faith-based organization to hire individuals 
of any faith. After all, critics say, the soup is still served 
and the person is still fed. The argument is faulty. For any 
faith-based or community organization to hire employees who are 
dedicated to upholding the values of the organization is not 
discrimination but a basic right of liberty. Justice Brennan 
wrote in Corporation of Presiding Bishop v. Amos, ``Determining 
that certain activities are in furtherance of an organization's 
religious mission and that only those committed to that mission 
should conduct them is . . . A means by which a religious 
community defines itself.''
    The government is acting in an even-handed way when it 
permits all organizations it funds, religious as well as 
secular, to hire staff devoted to their respective missions. 
Abortion rights organizations do not lose their ability to 
screen out pro-life applicants when they accept government 
funds. In the same way, faith-based service groups should not 
lose their religious staffing liberty if they accept Federal 
grants. Keeping religious staffing legal is the only way to 
ensure equal opportunity and effectiveness for all 
organizations and to respect the diversity of faith communities 
that are part of our civil society.
    Today we will discuss a variety of viewpoints related to 
the faith-based initiative. We will discuss the legal questions 
that accompany the initiative and we will examine how the 
initiative is actually playing out both in a research sense but 
also at the most critical level, the neighborhood level. We 
will hear from two organizations that are living out the 
initiative on a daily basis. I know that faith-based and 
community organizations are making a difference in the lives of 
thousands of Americans. What we need to work toward is how best 
to structure the relationships between those organizations and 
the government. Our discussion today should be lively about how 
that can be accomplished.
    Now I would like to yield to the distinguished ranking 
member, Mr. Cummings.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T5779.001
    
    [GRAPHIC] [TIFF OMITTED] T5779.002
    
    [GRAPHIC] [TIFF OMITTED] T5779.003
    
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this important hearing on the legal and practical 
issues raised by the President's faith-based initiative and its 
implementation by the Bush administration.
    Let me just say from the outset, Mr. Chairman, that I along 
with many Members of Congress, am concerned about 
discrimination. As one who has personally experienced 
discrimination and who knows the painful results of it, I think 
we have to, at every single juncture where we see 
discrimination raise its ugly dangerous head, we have to be 
very careful about it. And sometimes I think that we become 
very confused about the good coming out at the expense of the 
harm that may be done when a faith-based organization hires 
only a certain race of people, a certain religion, because 
basically the problem is that then they take my tax dollars and 
discriminate against me, which is incredible. And so, this has 
been one, a major issue for, I know, my good friend Bobby Scott 
of Virginia. We have spent in the Congressional Black Caucus a 
phenomenal amount of time on this. And I guess the thing that 
bothers me more than anything else is how, when we raise these 
issues, most of us, like myself being a son of two preachers 
and very much for faith-based efforts, very much, and for some 
reason when we raise the issue, folks then say, oh, they must 
be against churches. Nothing could be further from the truth. 
Nothing. As a matter of fact, all my life I have seen churches, 
people reach in their pockets in churches and do all kinds of 
things that government would normally have been doing, and they 
do it over and over and over again. They do a good job. But do 
not take my dollars, or those of the American people and then 
use those very dollars to discriminate against me, or my 
children, or any other American. And that is the crux of this 
situation.
    You know, it bothers me that we make these arguments and I 
will bet there's not one Member of Congress that is against 
faith-based organizations doing what they do. It basically 
comes down to an issue of discrimination. And so I have a 
problem. As I told a group just on Sunday, a lot of times we 
look at the ends. We look at the ends. And we say, yes, the 
person who was the addict has been treated. We look at the 
homeless person and we say, yes, the church, the faith-based 
organization, has done some wonderful things for that person, 
and now they are up on their feet. But the end don't always 
justify the means, because if you come to the end and you 
basically destroy the very principles of the Constitution and 
what this country is all about, then I think that you have 
chipped away at this wonderful thing we call a democracy. You 
have given a foundation for discrimination and I think, 
therefore, that the end certainly does not justify the means.
    And so it is that I am looking forward to our discussion, 
but I, you know, I didn't even read my remarks because it just, 
it upsets me so much that we on this side of the aisle, who 
have consistently stood up for those things that are humane, 
consistently stood up for those things that would help people 
get on their feet, consistently stood up for people who could 
not stand up for themselves, consistently tried to make sure 
that tax dollars were distributed in a way where children to 
reach their God-given rights, consistently stood up for 
homelessness, consistently, for people so that they are not 
homeless, consistently stood up for all of those things that 
are humane, then for the argument to be turned around to say 
that you're against discrimination. Then suddenly you're 
supposed to be against faith-based organizations.
    And so I don't take a back seat to anyone with regard to 
being a humanitarian. But part of that humanity is that you do 
not discriminate against people with their own money. And with 
that, Mr. Chairman, I will submit my official statement for the 
record and look forward to the testimony.
    Mr. Souder. Thank you.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T5779.004

[GRAPHIC] [TIFF OMITTED] T5779.005

[GRAPHIC] [TIFF OMITTED] T5779.006

[GRAPHIC] [TIFF OMITTED] T5779.007

    Mr. Souder. I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record, that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, it is so ordered.
    Also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Now I would like to ask our first panel to stand. It is the 
custom of this committee to swear in all the witnesses. If you 
will stand and raise your right hands. Amy Sherman doesn't 
happen to be here, Dr. Sherman, does she?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses have 
answered in the affirmative.
    OK, we are going to start with the Reverend Barry Lynn, the 
Executive Director for the Separation of Church and State. 
Thank you for coming today.

 STATEMENTS OF REV. BARRY LYNN, EXECUTIVE DIRECTOR, AMERICANS 
 UNITED FOR THE SEPARATION OF CHURCH AND STATE; HOLLY HOLLMAN, 
   GENERAL COUNSEL, BAPTIST JOINT COMMITTEE; NATHAN DIAMENT, 
      DIRECTOR OF PUBLIC POLICY, UNION OF ORTHODOX JEWISH 
CONGREGATIONS OF AMERICA; REV. WILSON GOODE, SENIOR ADVISOR ON 
FAITH-BASED INITIATIVES FOR PUBLIC/PRIVATE VENTURES; AND STEVE 
                 FITZHUGH, DIRECTOR, THE HOUSE

    Reverend Lynn. Thank you, Mr. Chairman and Mr. Cummings. 
President Bush's faith-based initiative strikes at the very 
heart of the separation of church and State in America. This is 
a system which literally merges the institutions of religion 
and government in the delivery of social services. It forces 
taxpayers to support religions with which they may not agree, 
jeopardizes the well-being of the disadvantaged in America, and 
subsidizes discrimination in hiring with public funds.
    Speaking recently in New Orleans, President Bush expressed 
his desire to fund programs that, in his words, save Americans 
one soul at a time. There the President certainly sounded more 
like a pastor than a President. And in fact, neither the Chief 
Executive nor Congress were elected to convert people or to 
promote religion. That is not your or their responsibility.
    We continue to careen dangerously down the path of 
government-supported religion and Congress has a responsibility 
now to apply the brakes. The Bush administration's course is 
especially reckless, given that prior practices already allowed 
faith-based groups to work with government to offer social 
services of many kinds. These groups merely had to comply with 
the same commonsense rules that all publicly funded groups must 
follow. There was no distinction. There was no discrimination.
    This initiative, however, presents three very specific 
problems that I would like to address.
    First, the initiative will lead to government-funded 
religious evangelism. The President has repeatedly stated his 
desire to fund groups that permeate their programs with an all-
encompassing religious element. In fact, he often argues that 
this religious component is exactly what makes these programs 
successful. However, actions speak louder than words, and 
claims by this administration that tax funds will not be used 
to promote the spread of religion, frankly, at this juncture in 
the program, ring very hollow. His proposed legislative 
language forbids tax support being used for sectarian 
activities, but frankly I've come to believe that is mere 
verbiage that will not be enforced in any meaningful fashion. 
The potential recipients, by the way, of government largesse 
can see through this ruse. Indeed, according to media reports, 
one recent audience actually laughed when the President noted 
that they, of course, couldn't use taxpayer money to 
proselytize. They understood exactly what he meant. People in 
desperate need of social services should not have to face the 
prospect of unwanted religious coercion as the price of getting 
help from their government.
    Second, this initiative will foster taxpayer-funded 
religious discrimination. The Federal Government has a decades-
old national policy of forbidding government funds to promote 
any form of discriminatory employment practices. Every poll 
I've seen shows that the American people do not believe that 
faith-based groups should be able to get tax dollars and then 
turn around and engage in discrimination when hiring staff to 
provide what, remember, are supposed to be non-religious 
services. The public apparently does not want America's civil 
rights laws placed on the chopping block in the false name of a 
false form of religious liberty. And this is no theoretical 
concern. As recently as last month, the Salvation Army in New 
York was sued by former and current employees who allege 
religious discrimination. Were the Salvation Army privately 
funded, of course, this would not be an issue. It is an issue, 
however, because the Salvation Army in New York alone gets 
millions of dollars every year, courtesy of the taxpayer. Not 
surprisingly, those taxpayers want transparency, 
accountability, and fundamental fairness.
    Finally, the faith-based initiative encourages the 
government to play favorites among religions and this indeed is 
a very dangerous game to play, one which is very likely to 
increase interfaith tensions by spurring religious groups to 
engage in unhealthy forms of competition for very limited tax 
funding. The administration, of course, denies this as well, 
but already we have seen evidence to the contrary. Nearly all 
of the money disbursed under various faith-based initiative 
programs to date has gone to Christian groups, including one 
grant to television preacher Pat Robertson's controversial 
Operation Blessing. James Towey, the Director of the White 
House Office on Faith-based Initiatives, said last year that 
Wiccan modern-day pagans are unlikely to get any aid because 
they are a, ``fringe group whose members lack a loving heart.'' 
What is that if not rank bigotry on the part of a government 
official administering this very program?
    The preservation of separation of church and State and the 
idea that we do not use tax dollars to discriminate are vital 
to the American experiment. The faith-based initiative is a 
highly controversial experiment on our liberties. Our founders 
would know exactly why it is wrong, as President James Madison 
would not even allow the government to give an Episcopal church 
here in Washington official corporate status, noting that the 
church should care for the poor. There was no tax money 
involved in that, but even the symbolic union of church and 
State was too much for President Madison. Churches, he said, 
don't need authority from the government to care for those in 
need. In his writings James Madison, the father of the 
Constitution, bitterly denounced government funding of 
religion. He warned against the government employing religion 
as an engine of civil policy, calling it an unhallowed 
perversion of the means of salvation. Those strong words are 
words that we should all remember as we discuss the faith-based 
initiative.
    For the last number of years I've worked with His Honor 
Mayor Goode on a joint project started initially by Senator 
Rick Santorum and former Senator Harris Wofford, and one of the 
things that we agreed about that is so central to all of this 
discussion is that we know there are people in need. That is 
not in question. The only question is how to better deliver 
meaningful and responsive benefits to the people who are 
homeless, who are hungry, who are disheartened by their piece 
of the American experience. And I just think it is absolutely 
unconscionable that the wealthiest country on the history of 
the planet Earth is now facing a battle where some religious 
providers are battling with other religious providers, all of 
them battling with secular providers, to get the crumbs from 
the budgetary table. That, I'd like to think every person on 
this panel would agree, is an inexcusable moral disgrace for 
America. Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Reverend Lynn follows:]

    [GRAPHIC] [TIFF OMITTED] T5779.008
    
    [GRAPHIC] [TIFF OMITTED] T5779.009
    
    [GRAPHIC] [TIFF OMITTED] T5779.010
    
    [GRAPHIC] [TIFF OMITTED] T5779.011
    
    [GRAPHIC] [TIFF OMITTED] T5779.012
    
    [GRAPHIC] [TIFF OMITTED] T5779.013
    
    [GRAPHIC] [TIFF OMITTED] T5779.014
    
    [GRAPHIC] [TIFF OMITTED] T5779.015
    
    [GRAPHIC] [TIFF OMITTED] T5779.016
    
    [GRAPHIC] [TIFF OMITTED] T5779.017
    
    [GRAPHIC] [TIFF OMITTED] T5779.018
    
    [GRAPHIC] [TIFF OMITTED] T5779.019
    
    [GRAPHIC] [TIFF OMITTED] T5779.020
    
    [GRAPHIC] [TIFF OMITTED] T5779.021
    
    [GRAPHIC] [TIFF OMITTED] T5779.022
    
    [GRAPHIC] [TIFF OMITTED] T5779.024
    
    [GRAPHIC] [TIFF OMITTED] T5779.025
    
    [GRAPHIC] [TIFF OMITTED] T5779.026
    
    [GRAPHIC] [TIFF OMITTED] T5779.027
    
    [GRAPHIC] [TIFF OMITTED] T5779.028
    
    [GRAPHIC] [TIFF OMITTED] T5779.029
    
    [GRAPHIC] [TIFF OMITTED] T5779.030
    
    [GRAPHIC] [TIFF OMITTED] T5779.031
    
    [GRAPHIC] [TIFF OMITTED] T5779.032
    
    [GRAPHIC] [TIFF OMITTED] T5779.033
    
    [GRAPHIC] [TIFF OMITTED] T5779.034
    
    Mr. Souder. Ms. Hollman, who is the general counsel for the 
Baptist Joint Committee.
    Ms. Hollman. Thank you, Mr. Chairman and Mr. Cummings. On 
behalf of the Baptist Joint Committee, a nearly 70-year-old 
religious liberty organization dedicated to the promotion and 
protection of religious freedom, I submit that the faith-based 
initiative is riddled with legal and practical problems. Our 
concerns are not new. We've actually monitored charitable 
choice and related proposals concerning the funding of 
religious institutions since 1995. Nor are our concerns 
trivial. They are fundamental to religious liberty. They stem 
from our theology, our historical experience, and our respect 
for the Constitutional standards that have long protected the 
religious rights of Americans.
    From the founding of our country, Baptists have opposed the 
use of tax dollars to advance religion. Why? Because we believe 
that when government funds religion it violates the conscience 
of taxpayers who rightfully deserve to expect the government to 
remain neutral in religious matters.
    Government always seeks to control what it funds, and 
government subsidization of religion diminishes religion's 
historic independence and integrity. When the government 
advances religion in this way, it inevitably becomes entangled 
with religious practice, divides citizens along religious lines 
and prefers some citizens, some religions, over others. There's 
an overarching problem here. There's an inherent conflict 
between allowing religious social service providers that 
receive government funding to maintain their distinctive 
character, practice, and expression and enforcing a 
Constitutional prohibition against government funding of 
religious activities such as proselytization, instruction, 
worship. Either we risk violations or we invite entanglement.
    I want to address two specific legal issues. First, the 
initiative as reflected in the December 2002 Executive order 
and guidance to faith-based organizations purports to throw 
open the doors wide for government contracting for any 
religious organization, regardless of their character. It also 
disregards time-honored Constitutional protections. The 
initiative abandons the traditional religious affiliate model, 
a model that allows religious organizations to partner with 
government in ways that protect their integrity and avoid the 
risk of government-funded religion. Under the administration's 
new approach, the only restriction imposed by the establishment 
clause is that government money cannot be used directly for 
inherently religious activities. The administration's guidance 
casually explains, don't be put off by the term, inherently 
religious activities. It's simply a phrase that has been used 
by the courts in church-State cases. Basically it means you 
can't use part of the direct grant to fund worship, 
instruction, or proselytization. This simple advice does not 
accurately reflect the law.
    While there is no doubt that religious organizations can 
participate with government to provide social services, indeed 
there's a Supreme Court case going back to, I believe, 1899 
that supports that proposition. The Supreme Court has not held 
that any religious entity, regardless of its practice and 
expression, including houses of worship, can receive government 
funding without violating the Constitution. Nor has the 
establishment clause been restricted to this short list of 
violations for religious worship, instruction, or 
proselytization. These regulations simply do not capture the 
full meaning of the establishment clause prohibition on 
government-funded religion. The regulations unnecessarily leave 
open and, in fact, encourage the risk that government will fund 
programs with explicitly religious content and will promote 
religion.
    The second legal issue concerns employment discrimination 
in government-funded positions. The legal conflict between the 
Nation's commitment to equal employment, non-discrimination and 
federally funded programs, and the autonomy of religious 
organizations that arises in this faith-based initiative has 
been a major part of the debate and one of the main reasons 
that the legislation failed before Congress. Despite the 
obvious conflict, the administration's guidelines give a false 
impression that religious discrimination in government-funded 
programs is not only legal, when the only Federal case actually 
goes the other way, but it also gives the impression, 
incredibly, that such discrimination is necessary in order to 
serve people through these programs.
    Title VII's statutory exemption for religious organizations 
does not mention, nor does the legislative history indicate, 
that the drafters contemplated the exemption's application in 
the context of federally funded job positions.
    Important practical consequences flow from these legal 
issues. The core values of church-State separation, which 
protects religious entities, and non-discrimination, are being 
eroded through changes to administrative regulations. Churches 
and other religious organizations are enticed into acting in 
unlawful ways. The administration is inviting greater 
participation by faith-based organizations and federally funded 
programs under rules that make them targets for legal 
challenges. Religious organizations are being encouraged to 
disregard non-discrimination laws and to proceed in ways that 
compromise their integrity.
    How can claims that the initiative is successful be taken 
seriously when so little is revealed about where the money is 
going and how it is being spent? Without legally sound 
regulations and without real oversight, it is reasonable to 
assume that money will be improperly used to promote religion 
and to fund employment positions restricted on the basis of 
religion.
    Reports that government funding of religious organizations 
is increasing, such as the recent Washington Post article 
saying that $1.1 billion was now being spent on religious 
groups, would be of no consequence if adequate Constitutional 
safeguards were in place. Alarm is warranted, however, when 
such money is being distributed without respect for our 
Constitutional safeguards and with the implicit approval of 
government funding for the promotion of religion and 
discrimination based upon religion. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Hollman follows:]

    [GRAPHIC] [TIFF OMITTED] T5779.035
    
    [GRAPHIC] [TIFF OMITTED] T5779.036
    
    [GRAPHIC] [TIFF OMITTED] T5779.037
    
    [GRAPHIC] [TIFF OMITTED] T5779.038
    
    [GRAPHIC] [TIFF OMITTED] T5779.039
    
    [GRAPHIC] [TIFF OMITTED] T5779.040
    
    [GRAPHIC] [TIFF OMITTED] T5779.041
    
    [GRAPHIC] [TIFF OMITTED] T5779.042
    
    [GRAPHIC] [TIFF OMITTED] T5779.043
    
    Mr. Souder. Our next witness is Nathan Diament. He is 
director of public policy for the Union of Orthodox Jewish 
Congregations of America.
    Mr. Diament. Thank you, Chairman Souder and Ranking Member 
Cummings, for the opportunity to address you today. The UOJCA 
is a non-partisan organization in its second century of serving 
the Jewish community and is the largest orthodox Jewish 
umbrella organization in the United States, representing nearly 
1,000 synagogues and their many members nationwide.
    I'll try to touch on some of the issues that have already 
been raised and just summarize my written testimony which you 
have before you.
    First, a couple of legal issues. The first is the legality 
of government actions undertaken pursuant to the initiative 
under the most recent interpretations of the Constitution. The 
second issue relates to the religious liberty protections 
afforded to faith-based agencies and their beneficiaries 
respectively.
    But underlying both of these important legal discussions is 
a more fundamental and philosophical discussion about the role 
of religious institutions in American society and the 
unprecedented, highly disturbing efforts to undermine the 
longstanding liberties and protections afforded to these 
institutions.
    Mr. Chairman and Mr. Cummings, there has been a good deal 
of progress under the aegis of the faith-based initiative. But 
as is often the case, there is a great deal of promise which 
remains to be fulfilled.
    First let me briefly comment about the progress. After 
President Bush launched his initiative in the first month of 
his administration, I'd suggest to you it became a political 
Rorschach test, one of those ink blot tests, with some 
projecting their worst fears upon it. And in fact this 
initiative does raise complex and critical questions, 
Constitutional questions and others. But this should really 
provide an opportunity for cool-headed discussion rather than 
overheated fear-mongering.
    The debate, as you know, became so heated that the 
initiative, which was previously a bipartisan initiative passed 
on bipartisan votes in previous Congresses and which both 
Presidential candidates in the 2000 election agreed upon, 
became one that only garnered a narrow party-line vote in this 
House and was promptly stalled in the Senate.
    But, as you know, the legislative deadlock just transferred 
the issue over to the executive branch, and they have 
undertaken important efforts which have resulted in significant 
progress. These efforts have resulted in important reforms 
which have not only opened up Federal grants programs which 
support social welfare projects, but have also brought real 
equity into an array of critical Federal programs throughout 
the government.
    And I'd like to give you two brief examples.
    The first is, in the year 2000, a severe earthquake struck 
the northwestern United States and among the scores of damaged 
buildings and homes was the Seattle Hebrew Academy. Like all 
those who suffered, this school, a Jewish community school, 
applied to the Federal Emergency Management Agency for 
financial disaster relief. Despite meeting every other 
eligibility criteria having nothing to do with religion 
whatsoever, FEMA denied the Hebrew academy funds because of its 
status as a religious institution.
    Many of us were shocked to learn about this FEMA policy. 
The earthquake did not seem to discriminate when it knocked 
down the office buildings and the houses and also knocked down 
the Seattle Hebrew Academy, and we thought it was inappropriate 
for FEMA to discriminate in its distribution of Federal 
disaster relief.
    Thankfully, the equal treatment philosophy that animates 
the faith-based initiative prompted the Bush administration to 
review and then reverse by Executive order this policy of FEMA, 
and no longer will religious facilities, whether they are 
schools, churches, synagogues or what have you, be denied their 
equitable share of Federal disaster aid should a disaster 
befall them.
    A similar issue arose within the Interior Department. 
There's a program called Save America's Treasures which was 
established in 1998 as a public-private partnership between the 
Interior Department's National Park Service and the National 
Trust for Historic Preservation, and they give out grants to 
assist historically landmarked sites with their upkeep and 
preservation costs. But prior to 2003, hundreds of religiously 
affiliated historic sites in this country were ineligible to 
apply on the basis of their religious status alone. So whether 
it was the Old North Church in Boston, the Touro Synagogue in 
Rhode Island, or countless others around the country, they were 
ineligible for this program. This too seemed discriminatory and 
unfair.
    The competitive, religion-neutral grants process is 
designed to ensure America's important architectural treasures 
are preserved for generations to come. And a 2003 study by the 
National Trust found the average historic congregation faces up 
to $2 million of repair costs just by virtue of being a 
historically landmarked facility. Again the administration 
reviewed and reversed this practice, and now religious 
landmarks are not given favored status over non-religious 
landmarks, but they are treated equally with their secular 
counterparts.
    Now, each of these policy changes is well grounded in 
detailed legal analysis, some of which I'll touch upon. But, 
more importantly, what's at their core is that they understand 
that the Constitution's Establishment Clause, its prescription 
against the establishment of religion, is not a license for 
government discrimination against religions but an insistence 
upon government neutrality toward religion.
    While some continue to contend that this understanding of 
the Constitution's religious clause is incorrect, these critics 
are in fact outside the main stream of current Constitutional 
thinking, as evidenced by nothing less than the Supreme Court's 
most recent rulings involving religious jurisprudence handed 
down less than 30 days ago. In this case, in the case of Locke 
v. Davey decided just last month, the court reviewed a 
Washington State scholarship program which awarded scholarships 
to high school graduates based upon religiously neutral 
criteria, and a student that had wanted to attend an accredited 
Christian college and met all of the other criteria was denied 
his scholarship because he was going to major in devotional 
theology. He sued the State of Washington and said the Free 
Exercise Clause demanded that he be awarded his criteria.
    Now, in fact, the Supreme Court rejected this claim. It 
said the Free Exercise Clause did not result in his being able 
to trump Washington State's Constitutional ban on the 
scholarship. But although the court rejected his claim, the 
claim by the student, all nine justices unanimously endorsed 
the proposition that there is no doubt that the State could, 
consistent with the Federal Constitution, permit recipients of 
a government scholarship to pursue a degree in devotional 
theology or engage in other religious activities.
    I'll briefly say that other recent Supreme Court decisions, 
whether it's the 2001 case of the Good News Club v. Milford 
Central School or the 2000 case of Mitchell v. Helms, all 
support this proposition that government neutrality toward 
religion is the central animating principle of the 
establishment clause. And that is also, I would submit to you, 
the central animating principle of the faith-based initiative.
    I see I have run a bit over on time so I will wait for your 
questions to remark on the free exercise considerations with 
regard to program beneficiaries and faith-based institutions, 
and I look forward to doing that.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Diament follows:]

    [GRAPHIC] [TIFF OMITTED] T5779.044
    
    [GRAPHIC] [TIFF OMITTED] T5779.045
    
    [GRAPHIC] [TIFF OMITTED] T5779.046
    
    [GRAPHIC] [TIFF OMITTED] T5779.047
    
    [GRAPHIC] [TIFF OMITTED] T5779.048
    
    [GRAPHIC] [TIFF OMITTED] T5779.049
    
    [GRAPHIC] [TIFF OMITTED] T5779.050
    
    [GRAPHIC] [TIFF OMITTED] T5779.051
    
    [GRAPHIC] [TIFF OMITTED] T5779.052
    
    [GRAPHIC] [TIFF OMITTED] T5779.053
    
    [GRAPHIC] [TIFF OMITTED] T5779.054
    
    [GRAPHIC] [TIFF OMITTED] T5779.055
    
    [GRAPHIC] [TIFF OMITTED] T5779.056
    
    [GRAPHIC] [TIFF OMITTED] T5779.057
    
    [GRAPHIC] [TIFF OMITTED] T5779.058
    
    [GRAPHIC] [TIFF OMITTED] T5779.059
    
    [GRAPHIC] [TIFF OMITTED] T5779.060
    
    [GRAPHIC] [TIFF OMITTED] T5779.061
    
    Mr. Souder. And as I said at the beginning, all the full 
statements will be inserted into the record, and if you have 
additional information.
    Next we'll hear from Dr. Wilson Goode, senior advisor on 
faith-based initiatives for Public/Private Ventures. Appreciate 
your distinguished leadership for many years in Philadelphia 
and thank you for coming today.
    Reverend Goode. Good morning, Mr. Chairman and Mr. 
Cummings. I'm delighted to be here and to really be a part----
    Mr. Souder. You need to tap your mic on, I think. There's a 
little button.
    Reverend Goode. You want me to start over again? Give me my 
time back.
    Mr. Chairman, and Mr. Cummings, I am delighted to be here 
and to be a part of this distinguished panel. I have submitted 
a more lengthy testimony, but I will just summarize mine and 
not read it.
    I speak in favor of faith-based initiatives. And I do so 
based upon 35 years of experience working with faith-based 
groups in order to deliver services using government funds. 
Thirty-five years ago, as a housing consultant working in 
Philadelphia, I was able to work with 50 local congregations in 
that city to build more than 2,000 housing units that help low- 
and moderate-income families to alleviate their problems.
    Second, I speak as a former mayor of the fourth largest 
city: Philadelphia, PA. During my tenure as mayor, each year 
for 8 years we gave at least $40 million in contracts to local 
congregations and faith-based groups in order to help the 
homeless and the hungry, those with AIDS, and help those to 
build housing for low- and moderate-income families.
    And, finally, in the last 3 years I have worked with a 
group called Public/Private Ventures and run a program called 
AMACHI. I went to a local prison during my first year and found 
a grandfather, a father, and a grandson, all in the same jail 
at the same time. And they met for the first time in jail. And 
the grandson, when I was leaving, pulled me aside and said to 
me, I have a son that I have not seen. And I guess I will see 
him for the first time in jail.
    The prospect of four generations being in jail is a problem 
that we have faced, that we are faced with and that we try to 
address through the AMACHI program. The AMACHI program is a 
faith-based program, a performance-based program, and a program 
designed to find volunteers from local congregations to mentor 
children who have one or both parents in jail. On any given day 
in America, 7.3 million children have one or both parents 
either in jail or under some type of Federal or State 
supervision. Seventy percent of those young people, children, 
will end up in jail themselves according to a U.S. Senate 
report. We believed that intervening with a partnership between 
Big Brothers, Big Sisters, and the faith-based community was 
the best way to do so.
    In the last 3 years, we have served more than 725 children, 
and from those children, two-thirds of them have seen an 
increase in academics, increase in their attendance at school, 
and a decrease in their behavior in school. We believe that 
faith-based organizations have every right to participate with 
these funds and to be provided these funds in order to begin to 
bring about a basic and fundamental change in the lives of 
these young people.
    This program now is in at least 25 other cities across the 
country, working with faith-based organizations, working with 
local congregations, finding volunteers, and the reason for 
this is that the children are located in the zip codes where 
the churches are. And therefore, we want to make sure that 
these zip codes where these churches are and these young people 
are come together in order to begin to solve these problems.
    Just a final comment, and that is that as I have listened 
to my colleagues speak on this issue, and I have listened to 
this for about 35 years now, and they have a good point. But I 
think a more fundamental point is that there are people out 
there every single day suffering, and the secular community has 
not been able to meet those needs.
    I believe we need everyone, faith-based, secular, everyone 
else out there, working in order to try and alleviate the 
social illness that we find within our community. I've seen 
tremendous, tremendous results from this one program, and there 
are many others that I can talk about during the course of the 
questions. Thank you very much.
    Mr. Souder. Thank you for your testimony.
    [The prepared statement of Reverend Goode follows:]

    [GRAPHIC] [TIFF OMITTED] T5779.062
    
    [GRAPHIC] [TIFF OMITTED] T5779.063
    
    [GRAPHIC] [TIFF OMITTED] T5779.064
    
    [GRAPHIC] [TIFF OMITTED] T5779.065
    
    [GRAPHIC] [TIFF OMITTED] T5779.066
    
    [GRAPHIC] [TIFF OMITTED] T5779.067
    
    [GRAPHIC] [TIFF OMITTED] T5779.068
    
    Mr. Souder. Our next witness is Mr. Steve Fitzhugh, 
director of the House.
    Mr. Fitzhugh. Good morning. It's been nearly 5 years since 
we first opened the House. I can recall the motivation. I still 
sense it and feel it every day as I drive through southeast 
Washington, DC. As a national youth communicator, I have been 
in front of over a million teenagers in America and abroad, 
while as a co-founding president of the House I serve some of 
the most at-risk of these teens in one of our countries most 
underserved communities: Anacostia, southeast Washington, DC. 
In fact, the risk factors are many. The poverty level is high 
and the violence is always threatening.
    The question became: How do we reach and impact the 
unreachable? I have a colleague, Darrell Green, who does it but 
he targets primarily elementary students. Another colleague and 
partner, Art Monk, he does it; but his students must have a 
certain grade point average to qualify.
    Who will provide a haven, a safe haven where any high 
school student can come? The House began as that entity. We are 
a place where any high school student can come and we'll say, 
you are welcome. The House is a surrogate home in the community 
where 80 percent of the families are headed by a single mom. It 
is a place not only for unconditional love and nurturing, but 
also a place for life direction and purpose.
    In my constant struggle to fund this project, a grant 
writer once suggested that we remove certain barriers to 
funding, specifically our ardent faith-based posture. She 
continued to inquire as to why we have chosen not to amend our 
vision so we can enjoy more funding. I found myself digging 
deep for the answer, which became so plain in time. We are 
faith-based because we have discovered that it is not merely a 
new program or a new curriculum students need most, but a new 
heart. We are hope merchants. We restore dreams and invoke 
destiny.
    Just ask Nina. Nina became so distraught, never met her 
father till she was in high school. Her mom still struggles 
with substance use and abuse. She was held back a grade in high 
school. She had one brother murdered in the 10th grade, another 
brother murdered in the 11th grade. But 1 day this wounded 
heart came into the House. She encountered the House. And 
that's what the House is, an encounter. There's a computer lab, 
a weight room, a fitness center, state-of-the-art recording 
studio, and dinner is served every night. Our philosophy is 
simple: Create a moment for life change and God can change any 
life in a moment. Nina changed. She went to night school, 
caught up with her class, and last June she cried when she 
walked from one edge of that stage to the other and accepted 
her high school diploma.
    Jason, by his own confession, his entire family is drug 
dealers and murderers. Five years ago he was caught up in a 
game. His goal was to have sex with a different virgin every 
day. Upon hearing him speak today of his values and goals and 
responsibilities as a father, you could never imagine the 
conversation I had when I initially met Jason before he 
encountered a faith-based program called the House.
    There are others with similar stories, like Tabitha, 
Dominick, Donnell, and Ruby. I had that story, too. I saw my 
mother die of cancer. She was a chain smoker. My oldest 
brother, my hero, well he died of cocaine abuse. I have a 
sister who abused drugs and is now an invalid at 48. I have yet 
another brother who struggles today with alcohol and chemical 
culture, all of these things that so often ensnare young black 
men.
    But how did I escape? How did I get the full scholarship to 
college? How did I end up in the NFL? How did I get the wife 
and family I have today and the knowledge of what it takes to 
be a man? I had an encounter with God. I discovered my purpose 
and my reason for being, and it changed my life.
    Students don't care how much you know until they know how 
much you care, and at the House we care. And so I brought with 
me today one of our students, the hardest of the hard for us to 
reach. Nobody would ever touch this guy. His name is Mike. I 
brought him with me in memory through something I wrote about 
him called ``Destiny.'' If Mike had just 2 minutes to share 
with you, this is what Mike would say:

    I can't hardly see the light of day. Misery stay in my way. 
Still I dreamed to be free, like them boys on my TV. But every 
day is just the same. I got nothing but pain on top of pain. I 
can't escape this hopeless dream. I open my mouth but cannot 
scream, so here I am, me and my crew, not knowing what we ought 
to do. The street's our only road. No other life to use we 
told.
    Poverty ain't nothing new. That's all I knew since I was 
two. Mom's did the best she could struggling down here in the 
'hood. I'm steady hating that deadbeat dad. Disappointment's 
all I had. I gotta face the dreadful fact my daddy's never 
coming back.
    Now I gotta be a man all on my own, yet they don't want me 
acting grown. Street soldiers popping is that glock, young 'uns 
dying up on my block. I'm scared to close my eyes tonight cuz 
I'm feeling like something just ain't right. Still I'm trying 
to speak my heart. Too bad your fear keeps us apart. I can't 
believe it till I hear it. I can't hear it till you tell it.
    If the truth is what you preach, why don't you help this 
brother reach my destiny? Cuz I reminisce about all these 
scars. It's like I'm in prison, they my bars. I'm locked away 
from the joys of life. Am I destined for streets and strife? Am 
I ever gon' win a wife. Ever gon' have the pain-free life, ever 
gon' travel around the world? Will I get another chance to 
raise my girl? Will I ever sleep without this hunger?
    Makes me wonder, makes me wonder why I live in so much 
pain. Will I lose my mind, will I go insane? And when I hear 
the final bell, will it be heaven, will it be hell? Will I die 
when I'm in my prime? Can I ever renew my mind? Is there a God 
that can forgive all the wickedness I did, because I can't 
forgive my thuggish self?
    Got too much pride to cry for help. Facts too hard for me 
to admit, if it don't fit you must acquit. But if my record is 
true and right, I ought to be serving double life. They should 
have throwed away the jailhouse key for the sins locked up 
inside of me. No solution for my drama, I'm too old to run to 
mama. I want to change, but how? Do I pray it? How many times I 
gotta say it? You got sight, why can't you see it? Without you, 
will I ever achieve it? My destiny.
    So I choose to go on. Gotta survive, gotta stay strong. How 
many times I said that's it. How many times I wanted to quit. 
Like when Shorty broke my heart. I was true blue right from the 
start. Why me, I had to plead. Gave love a chance and still I 
bleed. Regret I wasted time. True that all the blame was mine.
    They tell me today's another day. They say it's not too 
late to change. They say I can still redeem my life. They say 
there's a way to walk upright. But when I close my eyes real 
tight, I'm still seeing demons in the night.
    I'm ready to pay about any price just to get some peace 
back in my life. Like the time when we was young, me and my 
homies, just having fun. Sometimes I wanna go back when. 
Sometimes I wanna just start again. No more thug life under 
them street lights. No more sadness, no more sin.
    Wish you could help me find my way, 'cuz I'm living in fear 
of Judgment Day. Even the clock's my enemy, 'cuz everybody 
dying look just like me. It's like my grip is about to slip. 
It's like I'm down to my last clip. Darkened shadows, but they 
was mine. Don't let me die before I find my destiny.

    Mike was the one that got away. He was murdered 3 days 
before his 19th birthday. I never got to recite that poem to 
him that I wrote about him. Those who are closest to the water 
have the greatest sense of urgency for the need for a bigger 
boat. That's what they said in Jaws, ``We need a bigger boat.'' 
We need funding, we need resources, we need tools to touch 
lives. Thank you.
    Mr. Souder. Thank you very much for your testimony and your 
passion.
    Doctor Amy Sherman has arrived. I need to swear you in as I 
did the earlier witnesses. If you'll stand and raise your right 
hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that she responded in the 
affirmative. Doctor Amy Sherman is director of the Hudson 
Institute Faith-in-Communities Program.

STATEMENT OF DR. AMY SHERMAN, DIRECTOR, HUDSON INSTITUTE FAITH-
                     IN-COMMUNITIES PROGRAM

    Ms. Sherman. I have been asked today to provide some 
general observations from the front lines about the impact of 
the faith-based community initiative, and with a couple of 
background remarks I will begin.
    As has probably already been said, the initiative's 
ultimate objective is to ensure that the disadvantaged receive 
the best services. And it seeks to accomplish this through 
three principal means: eliminating barriers in procurements 
policies; creating a level playing field for faith-based and 
community organizations to compete on equal terms with secular 
groups; and better using and empowering and collaborating with 
grassroots and faith-based organizations. And the centers of 
the various Federal Cabinet departments play key roles in 
advancing those objectives.
    I think at least three key questions could be asked to help 
us assess whether they've done a good job. The first is, has 
the initiative stimulated Federal administrative reform to 
knock down barriers? Answer, yes. The Cabinet centers have been 
engines of administrative reform. They have reviewed 
departmental policies and identified barriers and proposed new 
regulations. Thus far, four agency rules have been enacted and 
eight new ones are awaiting finalization.
    Second assessment question: Has the initiative led to 
increased funding of faith-based groups or new special 
projects? Answer, yes. You can read the details in my written 
testimony.
    Third. Has the initiative influenced State and local 
policies toward faith-based groups? I think this is important. 
If the vast majority of Federal social spending unfolds through 
block and formula grants to States and localities, then the 
full promise of the faith-based initiative can't be reached 
unless change occurs at the State and local levels. So has it. 
And overall I would say that we have seen an encouraging amount 
of change, but more progress is needed.
    At the Hudson Institute we have conducted a couple of 
studies that indicate that State and local governments do 
increasingly appear to be contracting with faith-based 
organizations. Also a major study by the Rockefeller Institute 
has identified 11 different ways that States are engaged in 
reconstituting their relationships with faith-based providers. 
And 50 percent of the States for which data was available to 
the Rockefeller researchers had engaged in at least 3 of those 
11 types of activities. They also concluded that more 
demonstrable activity has occurred in the States since 2001 
than had following the passage of the charitable choice rules 
in 1996, which suggests that the administration's efforts have 
indeed enjoyed a degree of success in influencing State action. 
I think it is also notable that 19 States and 180 mayors have 
established faith-based offices.
    Let me conclude by mentioning several practical 
consequences of the faith-based initiative ``on the ground'' 
that I think are relevant any assessment of the initiative.
    The first is that clients have more options. Since faith-
based organizations that previously had no history of 
government contracting are now serving as service providers, 
there is a broader network in place. It also means that people 
of faith can now turn to faith-based organizations that share 
that faith to receive services.
    Second, the initiative might lead to an increase in the 
quantity of social service programs, for example, as a result 
of the activities underway through the Compassion Capital Fund.
    Third, government funding of faith-based organizations has 
sometimes had the positive benefit of better connecting faith-
based groups to the broader network of social service 
providers. In that way faith-based groups gain knowledge of 
additional resources in the community and that enables them to 
better serve their own clients.
    Fourth, increased participation by faith-based 
organizations in public funded social service programs has led 
to the mobilization of previously untapped human resources, 
which I think Mayor Goode was referring to. Public officials 
around the country are discovering that collaboration with the 
faith sector is helping them to provide more affordable 
housing, move more people from welfare to work, and decrease 
youth violence.
    Fifth, faith-based groups are in some instances serving as 
credible portals into needy immigrant communities and ethnic 
communities that government agencies desire to reach but don't 
always know how to reach.
    And finally, increased government and faith-based 
collaboration on the ground brings faith leaders and public 
officials into new relationships, fostering greater trust and 
dialog. That can be very important when potentially explosive 
issues like police brutality erupt.
    In short, I'd say that these new relationships fostered 
through the faith-based initiative are strengthening social 
capital in local communities around the country. Thank you.
    [The prepared statement of Ms. Sherman follows:]

    [GRAPHIC] [TIFF OMITTED] T5779.077
    
    [GRAPHIC] [TIFF OMITTED] T5779.078
    
    [GRAPHIC] [TIFF OMITTED] T5779.079
    
    [GRAPHIC] [TIFF OMITTED] T5779.080
    
    [GRAPHIC] [TIFF OMITTED] T5779.081
    
    [GRAPHIC] [TIFF OMITTED] T5779.082
    
    [GRAPHIC] [TIFF OMITTED] T5779.083
    
    [GRAPHIC] [TIFF OMITTED] T5779.084
    
    [GRAPHIC] [TIFF OMITTED] T5779.085
    
    [GRAPHIC] [TIFF OMITTED] T5779.086
    
    [GRAPHIC] [TIFF OMITTED] T5779.087
    
    Mr. Souder. I thank you each for your testimony and we'll 
go through a number of questions here.
    First, because this has come up a number of times, I want 
to clarify based on my perception and what we have said in our 
hearings and as we have moved through Congress, no faith-based 
organization that is receiving government grants, is practicing 
racial discrimination because they come under that law, is that 
correct? Does anybody disagree that the religious organization 
that practices racial discrimination could not get a grant?
    Reverend Lynn. I am not 100 percent sure about that and I 
haven't been from the beginning, because if the religious tenet 
of the organization, if someone believes in whatever their 
religious viewpoint is that race discrimination plays a role in 
their theology, I'm not convinced that they would not be able 
to make that claim under the President's program. Whether it 
would be successful, I would hope not. But certainly, it's not 
precluded from this, the language that I see in these program 
guidelines.
    Mr. Souder. That's certainly precluded in the laws that 
we've passed in Congress. In other words, as an author of four 
of those, I know we had working relations with Bobby Scott, 
specific clauses that says in the ones in welfare reform and 
the others, that you cannot practice racial discrimination. 
Now, there was a question if somebody challenged that. But 
that's a different matter because that's not being initiated by 
Congress. If somebody tried to practice it, then the question 
would be with the court.
    Mr. Goode. Reverend Goode.
    Reverend Goode. Yes. I think that anyone who receives 
government funds ought to play by the same rules all the other 
groups play by, and certainly anyone who is a faith-based 
organization ought to have the same criteria. In fact, when I 
go around the country and talk with groups about implementing a 
faith-based program, I tell them that the rules are all the 
same. The rules are all the same for everybody.
    What faith-based groups want is a level playing field, to 
be able to participate on the same basis that anyone else 
participates in, in terms of receiving money to help alleviate 
the suffering of people in communities where these 
organizations are located. And that's the basis of my view. And 
if they discriminate, take the funds from them. But don't throw 
out the baby with the bath water.
    Mr. Souder. Mr. Diament.
    Mr. Diament. If I could just comment on what Mayor Goode 
just said. I think there are two ways to look at the question. 
One way to look at the question is if you want to say it's an 
equal treatment principle, as Mayor Goode has just described; 
then you don't frame it in religious terms per se. But you can 
say, look, just like other ideologically oriented 
organizations, whether it's Planned Parenthood or the National 
Rifle Association or the Sierra Club or whoever, if they have 
an ideological philosophy that animates their organization, 
they are entitled to, and it's protected by the first amendment 
under freedom of association, they are entitled to hire people 
that believe in their ideological philosophy. The NRA does not 
have to hire people that believe in gun control. Planned 
Parenthood does not have to hire pro-lifers, and so on and so 
forth. So if you want to frame it as an equal treatment 
question, then religious organizations should have the same 
freedom of association rights as the NRA and Planned Parenthood 
and so on and so forth.
    But really it goes one step further. It goes to the fact 
that the architects of our modern civil rights laws, the 
framers of the Civil Rights Act of 1964, they are the ones that 
put into that law the unique exemption for religious 
organizations, having an exemption from the regular categories 
of employment discrimination insofar as religious faith or 
religious adherence is concerned. And obviously the original 
impetus for that was so that a synagog shouldn't be subjected 
to a Federal lawsuit because they don't allow Catholic priests 
to interview and apply and interview for their pulpit 
positions. They should be entitled to just interview and hire 
rabbis and not have to be threatened with a lawsuit for 
employment discrimination.
    Insofar as this has been addressed on broader questions 
beyond the pulpit, in the Amos case, which you, Mr. Chairman, 
mentioned, all of the justices, all nine of them including 
Thurgood Marshall and William Brennan, all believed that the 
Title VII exemption was a direct and necessary corollary to the 
free exercise clause of the first amendment. And that is why, 
quite frankly, it's politically useful for the critics of this 
initiative to wave the flag of discrimination in these debates, 
but it's really inappropriate and illogical because, I would 
submit to you and to Mr. Cummings with all due respect, that it 
shouldn't make a dime's worth of difference whether taxpayer 
funding is involved or not.
    My understanding, and I would respectfully defer to Mr. 
Cummings and others, but my understanding of the modern civil 
rights movement in the 1960's was that movement was not about 
combating racial discrimination only in taxpayer-funded 
programs. It was about lunch counters. It was about motels. It 
was about all kinds of places of private accommodation. 
Anywhere the law could reach to root out insidious racial 
discrimination was the goal of the civil rights movement. They 
didn't restrict themselves to taxpayer-funded religious 
discrimination.
    So if in fact Mr. Lynn and others are correct, that this 
practice of religious institutions enjoying the right to 
structure themselves is the very same kind of insidious and 
objectionable and offensive discrimination as was combated in 
the 1960's civil rights movement, then they should be logically 
consistent. And they should say, you know what? We don't want 
to only ban when taxpayer funding is involved. We want to go 
and order churches and synagogues and every other house of 
worship, whether they are only working on their own 
congregants' dollars and dimes or not, and we're going to order 
them to desegregate, we're going to start busing people between 
houses of worship and so on and so forth, just like we did to 
root out inappropriate racial discrimination.
    We are going to remove tax-exempt status from all of these 
institutions of bigotry. But that is not what they are saying. 
I don't know if it is just tactical, because that is obviously 
not what most people in this country would endorse or, in fact, 
they really do understand that there is a difference here. And 
the real difference here goes back to what I said at the 
outset.
    Religious groups are potentially the most fluid and open in 
our society. They are concerned about what you believe and what 
you practice. So you have synagogues that can have Asians and 
Hispanics, you have churches that have Whites and Blacks and 
browns, and so on and so forth. It is not about race, it is not 
about ethnicity, it is about belief.
    Mr. Souder. Mr. Lynn, I would like you to comment on that 
also. Do you agree with the fundamental principle that Planned 
Parenthood doesn't have to hire a pro-lifer, NRA doesn't have 
to hire someone who disagrees with them, an environmental group 
doesn't have to hire, if they get government funds.
    Reverend Lynn. Of course. Well, I do think that people are 
hired for jobs. That is to say, if someone is going to be in a 
federally funded program at the National Rifle Association, 
let's assume for the sake of argument that there is such a 
program, obviously if the person is a gun control advocate or 
one who wants to ban all guns, it would not make sense for 
someone to promote a lawful point of view.
    Mr. Souder. Can I clarify that and make sure that we are on 
the same page? If the NRA got, not an advocacy grant, but a 
grant, say, to do training of gun safety where advocacy isn't 
the issue, would they still have the right of association to 
only have people who agreed with their position to do something 
that wasn't advocacy?
    Reverend Lynn. Sure, because there is not a long history of 
discrimination as there is a long history of discrimination on 
the basis of race, of religion, of gender in this country. They 
would have the right to make those decisions. But, again the 
person would have to be qualified for the job, and presumably 
that would make the most likely person the most likely to be 
hired.
    The difference in these programs is that, let us leave the 
race issue aside for a moment, but all of the regulations, 
including the legislation passed by this House in the old 
version of H.R. 7, would effectively permit, just for the sake 
of argument again, a fundamentalist Christian group from 
putting on its job applications ``No atheists or Jews need 
apply.'' And it would be permissible, under the theory that 
Diament has just expressed, for an organization to say, in 
order to maintain our integrity as a religious body, we will 
discriminate.
    And, in fact, we don't have this as a theoretical program. 
A well known psychotherapist in Georgia, for example, was 
refused to be considered for a job by the Methodist Homes for 
Children in Georgia, precisely, and this is what he was told, 
and this is no big secret, because he was a Jew and they didn't 
hire Jews.
    I don't think this is the kind of conduct that is 
consistent with a responsible way to do Federal funding. If a 
religious organization or any other organization receives 
Federal funding, I think it, at a minimum, needs to abide by 
the basic civil rights principles long fought for in this 
country, and I think there is a big difference between an 
ideological thought about gun control and the status of your 
race, your religion, your national origin, and your gender.
    Mr. Souder. Once again, I think it is really important that 
there is a fundamental disagreement here, where my belief, and 
I believe it has been expressed in the laws here and in the 
debate, is that we are not debating race, gender or other 
discrimination laws, we are debating religious questions.
    Nobody here is disputing that an Orthodox Jewish group that 
has to hire a Baptist, in other words, that is a legitimate 
debate. But raising the other questions are at best going to be 
court-decided. And the burden of proof is going to be on the 
court to argue that, because the administration and Congress 
are not arguing that those discriminations can be practiced.
    Reverend Lynn. No. But, Mr. Chairman, the court has 
considered some of these issues. For example, in a privately 
funded Roman Catholic school, there are a number of court 
opinions that hold that a privately funded school can choose to 
fire a pregnant single mother because that status is 
inconsistent with their moral philosophy. That has been upheld 
because it was a privately funded religious group.
    So the question is, if we are going to now treat publicly 
funded religious groups in the same way, does that in fact mean 
that, it appears on the face to mean, that now publicly funded 
groups can discriminate on the basis of gender, if there is a 
religious hook on which to hang that argument.
    Mr. Souder. Of course, you are defining, because only one 
gender can become pregnant, that therefore that is 
discrimination by gender, and not by a religious belief of not 
getting pregnant outside of marriage. In that, it is important 
that we separate those two types of things. In order words, 
that is exactly what the case in San Francisco is dealing with 
on funding abortion, is an argument on gender specific. Or, 
let's say, it is at least indirectly related to the argument 
that abortion and contraceptive devices are related to gender 
discrimination as opposed to a moral discrimination, which, of 
course, many religions don't agree with.
    Reverend Lynn. Well, Mr. Chairman, I agree with that. There 
are two different issues. But I think that it is safe to say 
that the courts have not looked at it necessarily that way but 
have looked at it just as a matter of if the principle, the 
religiously based principle, says we do not want to have 
teachers who are pregnant and not married, we can fire her. And 
those decisions have been upheld.
    With private funds, it is one argument. But once you start 
having public funds used for the purposes of, what I would 
consider invidious discrimination, I think you have a whole 
change in the moral and the Constitutional calculus that you 
need to apply in this. I have to say the Catholic Charities 
case, I do not think, is about the faith-based initiative.
    California's Catholic Charities did have its day in court. 
I believe it lost 8 to 1. It argued that the California law 
exempting religious organizations was too narrow and therefore 
violated religious liberty. The court did not agree with it. 
But that had really nothing to do with the administration's 
proposals, because even if the administration's proposals 
became law, Catholic Charities would still not qualify for an 
exemption under the reading of California law.
    So that really I think is a red herring in the debate today 
or the discussion today.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I want to thank all of you for your 
testimony. I wanted to just go to Ms. Hollman, perhaps Mr. 
Lynn.
    As I was listening to Mr. Diament, and he raised the two 
cases, the FEMA situation and the American Treasurer's 
situation, can you just comment on, you know, I noticed one 
interesting piece on both of those cases. And I think you used 
the term ``government neutrality,'' Mr. Diament.
    And I was just, I mean, something that is sort of different 
about those cases that I am sure you were making a different 
kind of point, is this whole thing of, I guess, discrimination, 
say for example, in employment. A little different there.
    But I would just like for you all to comment. I understand 
the neutrality piece and everybody benefiting from government. 
I got that. But I just want you to comment on those two cases, 
Mr. Lynn or Ms. Hollman.
    Ms. Hollman. I can speak generally. I think Mr. Lynn can 
speak to the FEMA issues probably more specifically.
    The word ``neutrality'' is difficult, because on one level, 
it has some truth and people can say that the court has applied 
a principle of neutrality. But it is not as broad, it is not as 
clear as it seems.
    At times, in order to treat religion neutrally, you have to 
recognize it and treat it differently. It is wrong to say that 
religion is never treated differently. It is specifically, you 
know, specifically treated differently in the first amendment, 
just as it is specifically treated differently in Title VII, in 
this list of protected categories that we talked about. It is 
not just like other ideologies.
    So there is a basis for saying that religion can be treated 
differently from other secular enterprises. And as I understand 
the change in law with regard to funding repairs for historic 
buildings, or FEMA, or repairing after national disasters, you 
have had prior law, interpretation of case law, that said that 
government is not required to fund the repair of buildings, 
just like it is not required to build a synagog or church or 
school for an institution, even though it needs the money. It 
is not required to repair that.
    Now we have the administration that says, let's look at 
this law differently and see if we can allow the funding of 
that. And to do that, they have to say they're not funding 
anything explicitly religious, they are sticking to the 
building part of the program.
    What is interesting is that those cases make the best--
those examples make the best case for this neutrality 
principle. Treat everything the same. It is very different, I 
think, from what we are talking about in the majority of the 
faith-based initiatives, where there is a real risk of what is 
being funded actually having religious content, having the 
ability to promote a specific view of religion and advancing 
religious discrimination.
    Reverend Lynn. Specifically, there are certain emergency 
services that have been provided by government historically and 
have been permitted to go to religious institutions on the 
basis of kind of an emergency claim. I can think, for example, 
of repayment to churches that housed victims after a hurricane, 
or so on. So this has been going for a long time and doesn't 
represent nearly the magnitude of the issue that is before us 
on those other programs.
    Even in the comments that were published by various 
administration agencies, they seem to take a different 
viewpoint on this issue of construction grants or repair grants 
for churches.
    The Save America's Treasures Program is based, the funding 
of certain historic buildings is based, on the idea that the 
law has changed. There is an Office of Legal Counsel memo that 
says that it has, although when you really look at it as I have 
done, it does not make a very compelling case to overturn three 
big Supreme Court decisions in the 1970's that make it clear 
not only that government can't--well, it makes it very clear 
that government cannot provide funds if any part of the 
building that is being repaired or constructed is going to be 
used for a religious purpose.
    They don't parse it up and say you can spend 30 percent of 
the money if 30 percent of the tiles are walked on by religious 
people and the 70 are not. They don't do that. They just say it 
is a blanket prohibition against using government funds for the 
construction of religious buildings.
    And indeed the comments of the Department of Housing and 
Urban Development, recently published, do indicate that even in 
that instance the administration would agree with me, or at 
least in part with me, that government funds cannot be used to 
build buildings.
    When it comes to these very controversial matters like the 
construction projects at the Old North Church or the California 
Missions, I recently testified against an earmark grant in the 
Senate for $10 million to California Missions.
    Here are Missions, 19 of which are active congregations, 
Roman Catholic congregations, 1 of which is 2,500 congregants. 
It seems to me that when you combine that with the millions of 
visitors to those California Missions, it is really not the 
goal or responsibility of taxpayers to provide repairs to 
windows or icons out of tax dollars for active congregations.
    So we have opposed the funding of active congregations, 
repair of their windows, repair of their walls, not because we 
don't care about history but because we also care about the 
historic principle that government is not the ultimate 
collector of the plate collections from the taxpayers to fund 
these buildings. So I think the gentleman, Mr. Diament, is 
wrong in his sweeping interpretation of these laws.
    Mr. Cummings. But even if your--what you just said--so I 
guess you would not have a problem if in front of the church 
there was a monument that was put up over 125 years ago and it 
became a part of the American Treasurer's portfolio to be 
repaired. That is a little different than the stained glass 
windows in the church?
    Is that a distinction there?
    Reverend Lynn. I think that is an important distinction. 
Some people have used it. We have never, to my knowledge, filed 
any lawsuits or objections, particularly in those instances 
where properties are landmarked by the government. They didn't 
even want to be landmarked, they were landmarked, and they have 
all kinds of new responsibilities. It is not effectively a 
religious icon, it is not a religious artwork, it is not 
housing a congregation, it simply is on church property. That I 
think is a very different Constitutional issue.
    Mr. Cummings. To Mr. Fitzhugh, I appreciate what you said. 
I was just sitting here thinking about when you were speaking. 
And you too, Mayor Goode, Reverend Goode. I can understand--I 
have this saying that we have one life to live. This is no 
dress rehearsal, and this is that life.
    And I think that when we see what we see--I live in a 
neighborhood that produces the kind of young men that you just 
talked about. And I guess the most compelling argument is that 
we need to be about the business of saving lives and helping 
lives become all that God meant for them to be.
    Trying to--in other words, that same guy, like Dr. Ben 
Carson, who practices medicine in Johns Hopkins in my district, 
here is a man who could have easily been in a penitentiary. But 
because he had certain opportunities and guidance and a turn in 
his life, he is now one of the most--probably ranks within the 
top 10 neurosurgeons in the world.
    So I think we will always have a fundamental argument about 
how do we make sure that we do all we can for our fellow men 
and women as we live?
    But on the other hand, as I said in the opening statement, 
I think we have to be very careful that when we save that 
person or help them get to where they have to go, that we still 
have an institution in this country where they can continue to 
thrive and that respects other people's rights.
    And so it is tough when you have to face what--like you 
said, Mayor, where you see this every day. You see the lives 
end up being destroyed. You end up saying, is there something I 
can do to help?
    So I think that we have come up with solutions. It is just 
that we don't want the solution, part of the solution, to be 
discriminating against folks with their tax dollars. I mean I 
think you kind of agree with me, I think.
    Reverend Goode. Well, I really don't.
    Mr. Cummings. That is good.
    Reverend Goode. I really want to just say this----
    Mr. Cummings. But do you understand that I understand your 
passion and Mr. Fitzhugh's passion? I really do.
    Reverend Goode. I was the chief executive for 8 years; well 
actually that, plus city manager for 4 before that. So for 12 
years I had responsibility to provide services to people. And 
from a chief executive point of view, my job was to try and 
alleviate as much suffering as I could.
    And so I used institutions within that city, including 
local congregations, because I needed them to deal with the 
problem of homelessness. I needed them for shelters, I needed 
them for AIDS hospices, needed them to help feed the hungry 
people in the city, and any other agencies that could do what 
they could do in those neighborhoods.
    So from a practical point of view, I went to those 
agencies. And my life has been spent basically doing practical 
things--and I love to spend my time delving into the legal and 
research and all of those issues, and I love people who do 
that. But that is not what I do. What I try and do is find a 
workable, practical solution to a problem that is eating away 
at the hearts of communities where people live.
    And along the way, there will be issues of discrimination, 
there will be issues of fairness in some issues. But at some 
point, we have to stay really focused on how can we get moneys 
from foundations, from businesses, from government, into the 
hands of people who are going to, in the end, want to help to 
alleviate the suffering of people in these communities.
    One last point. That is, that I grew up in the South. I was 
a sharecropper. I know about discrimination. I hate 
discrimination. And we could put a face of discrimination on 
this. And we could have good sound arguments on both sides. And 
I think that there will be some folks who will discriminate. 
But I think, sir, that we can do a whole lot of good to a whole 
lot of folks without discrimination.
    And I think that those who discriminate ought to be dealt 
with. But we also ought to use the resources, in my view, to 
help those who need it, and deal effectively with those who 
discriminate.
    Mr. Diament. If I can make a brief comment on the practical 
point. I have been involved in this issue for quite some years. 
And what is most disappointing to me is the tragedy of the 
opportunity that was missed to get at what Mayor Goode has 
talked about here. And what I mean about this here is the 
tragedy of the fact that what was a more or less bipartisan 
initiative in previous years and an opportunity in the last 
Congress, in the year 2000-2001, to not only spur greater 
partnerships with government and community and faith-based 
groups on this issue, but actually it was an opening for what I 
believe was an unprecedented coming together of Republicans and 
Democrats, an infusion of new dollars in an unprecedented way 
into some of these social welfare programs in a way that, quite 
frankly, a Republican administration and a Republican majority 
in Congress may not have otherwise been prepared to do. But 
there were clear indications and public statements by the 
President and by Republican leaders in this House and the 
Senate that they were prepared to put more money on the table.
    Because we all agree there is not enough money on the 
table. We all agree that just redividing the pie is the wrong 
thing to do. The pie has to be made 3 times, 4 times, 10 times 
bigger than it is for the social welfare programs.
    There was a moment when folks could have come together, we 
could have pressed ahead in hashing out, negotiating some of 
these tough Constitutional and other civil rights issues and 
moved ahead.
    And the tragedy of partisan politics is what befell this 
initiative. And, if I may, the one appeal I would make to you, 
Mr. Cummings, and to Chairman Souder and to others is, probably 
not this year because it is a very political year, but at some 
point we should come back to this. And we should come back to 
this in a spirit of hope rather than cynicism, and of 
discussion rather than debate, and find a way to put both 
resources on the table and also empower new partnerships and 
really get to the people that Mr. Fitzhugh and Mayor Goode have 
been talking about.
    Reverend Lynn. Mr. Cummings, by the way, I think I did miss 
that moment when anyone was talking seriously about refunding 
programs tenfold for those in deepest need, although I would 
love to go back to that moment, because I think that is exactly 
what we need.
    The other problem, and I have sat, Mr. Chairman, through a 
number of these hearings over the past few years, repeatedly 
trying to find answers that would justify the need for 
continuing this discrimination possibility in government 
funding, and again this morning, very moved by what Mr. 
Fitzhugh talks about in his program.
    But why is it important, perhaps it isn't for him, that he 
only be allowed to hire Christians to serve the dinners, or to 
train young people to use that recording studio in his 
facility? Why is it important that it be hiring on the basis of 
religion as a guarantee that comes with that funding?
    I simply don't understand why Methodists should be expected 
to change the sheets in a homeless shelter differently than 
non-believers, or Jews or Hindus. It is not part of my common 
experience in working in any of these facilities or with any of 
these groups at risk. It doesn't make sense.
    Mr. Cummings. Thank you.
    Mr. Souder. I want to make a statement because you have 
referred to that before. And I have tried to be very cautious 
as we worked through this. And I realize there are fundamental 
Constitutional questions involved. I realize there are. I 
apologize for not saying ``swear or affirm'' in the oath this 
morning, because I always affirm an oath, probably for 
different reasons than you do, but I grew up in a very small 
separatist denomination and have great skepticism about how we 
approach these types of issues.
    But we have a lot of diversity in America. And what I don't 
understand is your last statement that you don't understand 
where people of deep faith are coming from, whether they be 
Christian or Orthodox, Jew or Muslim, who believe that when 
they are motivated through their own means to go out and help 
other people, that their mission is comprehensive, and that 
serving the soup or providing housing for somebody is a 
manifestation of that. That manifestation isn't uniquely 
Christian, Muslim, Jewish or any religion, because you are 
providing the soup.
    But you represent an organization in providing the soup 
that in fact, as a Christian, I believe reflects the glory of 
Christ. And if somebody in that organization doesn't reflect 
that glory of Christ or doesn't reflect the principles of the 
Muslim faith or the Jewish faith, it undermines the broader 
thing that motivated you to get involved anyway to give the 
soup, to provide the housing.
    Now, that is why I asked the question in relationship to 
the NRA or other groups, that if an NRA group is providing gun 
safety training that isn't ideological, but underneath it, if 
they have people in their organization that don't share their 
views, if there is an environmental group that maybe is just 
conducting a bird hike, but has somebody wearing a T-shirt or 
advocating the killing of bald eagles for dinner, is not likely 
to be someone that the organization wants to be affiliated 
with.
    And those who have deep faith believe that their 
organization should reflect that faith, not in who they serve, 
not with government funds to proselytize, but that the people 
in that organization reflect a shared association value. You 
granted that for secular groups. Why can't you understand that 
passion in the different religious groups?
    Reverend Lynn. Well, I certainly understand the passion.
    Mr. Souder. But just a minute ago you said you didn't 
understand why they felt they needed to have people delivering 
the soup of a shared association value. You just made that 
statement.
    Reverend Lynn. Well, yeah. But I do think religion is 
different, and I think it is more powerful than ideology. I 
think as a consequence, that is why the framers of the 
Constitution treated religion differently. They said it was in 
some circumstances more protected, and other circumstances 
more--we had to be more careful about subsidizing, precisely 
because it is unique. It is not like your thoughts on gun 
control, or tree hugging, or any other issues. This is what 
matters the most.
    And my problem is trying to figure out why all of these 
groups that we have been talking about and you have been 
discussing for years now, most of them don't want to take that 
final step and say, we would never really hire someone who 
wasn't a believer. Why can't we get the funding to those groups 
willing to play by the civil rights rules? And if there are 
people that say, look I just can't live with that. I think you 
had one witness in the last 4 years who said that, then maybe 
we should deal with the funding for the 98 percent of the other 
folks and just say, look, the Constitution, rightly or wrongly 
200 years ago, we decided you can't get the funding.
    Then we would find the resolution. We would find a way to 
implement the dozens of suggestions that were made in the group 
that Senator Santorum set up that Reverend Goode and I were on. 
We could do all of that without violating anyone's 
Constitutional rights. We just have to have the will to do it. 
We have the capacity to do it.
    Mr. Souder. We have, understandably, a deep disagreement in 
vision, including what the Founding Fathers meant between 
religion and giving certain advantages to the Episcopal Church. 
The wall of separation was to protect Evangelicals like myself 
from the State, in forcing church schools, funding the home of 
the Episcopalian pastor. It was not meant to say if there was 
even competition.
    Now, that is a Constitutional difference in how we 
interpret Madison, how we interpret Jefferson, and so on. But 
there are two schools of thought on that, not one universal 
accepted thought, which is what we battle through.
    But I want to move to a couple of other questions, and I 
want to reinforce one thing that Mr. Diament said. And that is, 
I don't think we are ever in danger of increasing anything 
tenfold. But I think there was a goal of many of us, and I can 
speak deeply from personal experience, when we were trying to 
work and did successfully pass a number of these things under 
the Clinton administration.
    But as we worked with then-Governor Bush as he was running 
with Steve Goldsmith and Senator Santorum and I, we talked 
about this. And one of the political dilemmas that we face 
here, bluntly put, which isn't usually talked about in public, 
and I would like Reverend Goode, would you rather be referred 
to as Mayor Goode or Reverend Goode?
    Reverend Goode. I got promoted to Reverend.
    Mr. Souder. OK. Well, I want to get your reaction to this 
statement. Because part of the problem with this faith-based 
initiative, and I appreciate that the administration has moved 
forward. Mr. Diament's statement triggered this for me.
    For years, Bob Woodson hammered on me as a staffer and then 
as a Member about the zip code test which you referred to; 
people living in their zip code. And the problem that we have 
is that many, if not almost all, government grants are going to 
organizations that were not neighborhood based, community 
based, were not particularly in low-income, minority areas. 
Black, and Hispanic often are disproportionately represented, 
and the dollars weren't going to those groups.
    And many of those most effective neighborhood organizations 
were faith-based. The problem that we had as Republicans is our 
Members don't represent those districts. And so when the 
Republicans are in the majority, we tend to represent, for the 
most part, the few of us--I represent Fulton, IN, it has 
230,000 people, so it has the traditional low-income area that, 
often at least, say two-thirds are different minority groups, 
are obviously White, poor people as well even in an urban 
center--but that most of our Members represent predominately 
suburban and rural districts. So it was very hard to get kind 
of traditional support for dollars in their districts.
    And when we talked about the difficulty that this 
initiative was going to have, the question is we had a moment 
in time where a number of Republicans, partly because their 
Presidential candidate was advocating this and many of us said 
this is the right thing to do, because we need to get the 
dollars leveraged and down to neighborhood groups that are 
based in largely urban districts that we don't represent.
    And we ran into this buzz saw of arguing, not about racial 
and sex discrimination, but really homosexuality and religious 
preferential hiring that could lead you into a variation of the 
sex discrimination question. And those issues have exploded 
this category.
    Now, I want to ask as a practical matter of someone who has 
been directly involved in this program, have you seen an 
increase in dollars that have gone to neighborhood-based 
organizations, that are Black and Hispanic based, that would 
have been different in Philadelphia and other places around the 
country? Because to me, one of the fundamental challenges of 
this system is are we accomplishing what many of us who 
supported faith-based initiatives, because I am not saying Pat 
Robertson doesn't have a wonderful group, I don't really know. 
But that wasn't the primary target of what we were trying to do 
with this initiative.
    And I would like to hear for the record what you think is 
being accomplished through this initiative and are the dollars 
getting to where we intended the dollars to go?
    Reverend Goode. There is no question at all that there has 
been a significant increase in funding of neighborhood-type 
groups, African American, Hispanics, Asians, throughout the 
country.
    I have had the opportunity to travel in the last 5 months 
to 25 cities that have received funding, and have watched them 
struggle with getting those programs off the ground. And they 
are getting them off the ground and are beginning to move.
    So if the question that you posed to me is, is there an 
increase in funding to groups who never before received funding 
at the neighborhood level, the answer is absolutely yes.
    Mr. Souder. Dr. Sherman, I know you have researched this 
and you have worked with a number of the States and have been 
doing some statistical things. Do you agree with Reverend 
Goode?
    Ms. Sherman. Yes. In our study of 15 States, yes. We 
identified the recipients of government contracts, faith-based 
organizations that were regulated by the charitable choice 
rules. And we discovered that among congregations that have 
received these dollars, more of them were minority-dominant 
congregations than White congregations. So we have seen that as 
well.
    And also over 50 percent of the organizations that we 
discovered in the 15 States, had received government funding 
for the first time only since the passage of the charitable 
choice rules, and often only since the faith-based initiatives. 
So we definitely have seen a correlation between groups that 
previously were not receiving these types of dollars, we have 
seen an increase in those organizations since the 
administration's efforts.
    Mr. Souder. I am one who has been concerned about the money 
going directly to churches as opposed to separate 501(c)(3) 
organizations. Have you seen--spart of this initiative was 
supposed to help train organizations that may not have CPAs and 
attorneys in their congregations to try to set up such 
organizations. Have you seen that also through the initiatives?
    Ms. Sherman. Yes. Actually I would say that despite the 
fact that the original charitable choice rules did allow for 
the funding to come directly to congregations, and we have not 
in our research discovered any particular problems with that, 
nonetheless most of the people that are associated with 
capacity building and training efforts, encourage 
congregations, even though they are not required to do that, to 
go ahead and set up a separate 501(c)(3), because it makes the 
accounting issues simpler. It protects them from audits and the 
like.
    So we haven't seen in our research any instances of it 
being problematic if the congregations didn't set up one, but 
it has definitely been the case that most of those that are 
involved in the types of training initiatives such as those 
funded through the Compassion Capital Fund really encourage 
congregations to take that step as just an extra safeguard.
    Reverend Goode. I would just add that for 35 years I have 
urged local congregations to form a 501(c)(3), set up a 
separate corporation, don't get the morning offerings mixed up 
with the government funds. And I think that is the perfect way 
to do it, in my view. And I think that when you don't do that, 
that you are really skating on very thin ice. It may be legal, 
but it is not practical from my point of view, just in terms of 
bookkeeping. It is in terms of, separating out the church's 
money from the government's money.
    Reverend Lynn. Mr. Chairman, and Mr. Cummings, I think that 
part of the question is: Is more money going to a certain kind 
of institution? That is question No. 1.
    I think there are two other questions. Have more people 
been served overall? And, then, were they served better? I 
think that is where the data is lacking. You know, when people 
start to tell me about new programs getting money, the first 
question in my mind is where did that money come from. Was it 
taken from someone else?
    There was a very controversial case--I am sure you are 
aware of it. In Boston, a homeless shelter for veterans was 
told it would have to cut its beds by 50 percent. It was a 
well-established, long-serving program. The faith-based office 
said, well, don't worry, the money is going to go to North 
Carolina and Utah. But, of course, I don't know how veterans in 
Massachusetts were supposed to get to those other facilities.
    I use that story all over the country in debates and 
discussions. Eventually they changed their mind and gave that 
Massachusetts organization back its money. But it seems to me 
that if there are homeless veterans in three places, we are not 
able to say ``job well done'' unless we are serving all of 
them; not taking one, and serving--taking its money and using 
it for somebody else.
    Mr. Souder. Mr. Fitzhugh, I understand that you have an 
appointment. I wanted to ask a question to you before you go, 
if you have time, and then you are excused if you need to go. 
We may go a few more minutes yet.
    You heard Mr. Lynn's comments earlier. Then you heard some 
of my comments. Let me first ask a question. Do you accept 
government funds? Are you getting any faith-based grants at 
this time?
    Mr. Fitzhugh. We actually got an appropriations, D.C. 
Appropriations Committee's funds.
    Mr. Souder. You understand that with those funds you can't 
directly proselytize? Was that explained to you in the process?
    Mr. Fitzhugh. These are earmarked for renovations.
    Mr. Souder. And do you feel that in the renovations of the 
building, which basically is a secular activity--the building 
doesn't proselytize, may attach a sign to it--but do you feel 
that your mission would be compromised?
    One of the delicate things nobody really likes to talk 
about here are that in every community, in every church, from 
counseling and from what, you know, but it hasn't been proven 
in a court, there are allegations; I know partly because people 
don't like to turn in neighbors. You can't do certain things in 
the church; so-and-so may be abusing his wife, so-and-so may be 
a drug dealer, everybody in the congregation knows that, or at 
least thinks they know that. And it would undermine the mission 
of the church if that was revealed.
    Many times there are different rules set in churches, more 
stringent than the societal rules, because they believe it is 
important to have a strange statement from that denomination 
about how they approach things, or their approach.
    I know I have been with a Member up in Newark, NJ. There 
are kinds of standards. They have don't wear a hat here. Other 
people have other types of guidelines to try to put discipline 
in when they are with high-risk populations, that under Federal 
rules if you didn't have a religious exemption would have to be 
basically someone who has been found guilty in a court before 
you can act; which may or may not ever happen.
    The question is, could you function and fulfill your full 
mission, or would be interested in the dollars if, in fact, you 
had to take anybody who walked in, who was qualified for a 
particular job such as painting on the wall, which may be 
anybody, as a staffer of your organization? Would that change 
your mission or your goals?
    Mr. Fitzhugh. I think one of the things that we are 
challenged with and what we face on a regular basis, I have 
heard a lot of the testimony today. And for me and what we do, 
we have limited staff. We have already buried four students so 
far this year.
    We have already seen a number of unwanted pregnancies. We 
have already been surrogate parents for a number of displaced 
students. One of the strengths of what we do is that we as a 
team present young people with an opportunity at what we call 
life. And for us that life is getting a handle on their own 
individual purpose and destiny in life. And as a team, we have 
wrestled with, we have talked about our vision and our mission 
and how do we acquire funds.
    If someone, Mr. Cummings mentioned earlier that a lot of 
people in church reach in their pocket and pull out money and 
do a great many things. We just have found that in urban 
America, donor-base-supported work is a progressive idea to 
give to those kind of ministries. We are always strapped for 
funds.
    I would think that it would be a compromise to what we 
believe if we would present to students inconsistencies in what 
we are saying as a collective voice about what they can 
accomplish in life and who they are, if there are persons who 
mince those words with us.
    So as it relates to the moneys we just received for our 
renovations, we believe that there is a whole generation of 
young people today who are unreachable, nobody wants to deal 
with. Teenagers, urban teen-age kids, people are afraid of 
them. That is our target. And we realize they live in a media-
dominated world.
    So we have a recording studio and we are building a TV 
studio and we are building a dance studio. And hopefully we 
will be able to love on these students. Hopefully we will be 
able to give these students a sense of identity, a sense of 
self-worth, and hopefully we will have a consistent voice in 
that.
    Quite frankly, I don't think it will compromise my program 
if the guy who is nailing the nail doesn't believe what I 
believe, or if the guy who is laying the brick doesn't believe 
what I believe. Just build my building, renovate my building.
    But when it comes to our program staff, we believe it is 
important to have a collective voice.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. I just want to thank you before you leave, 
Mr. Fitzhugh, for what you are doing. And it is very important. 
And, again, we are trying to figure out the balance here. And 
there is absolutely no doubt that programs like the one you 
have are essential. Probably not enough of them.
    And I was just thinking maybe some of us in Baltimore need 
to look at your program and see what you are doing, because we 
have a lot of unreachables. And we just found out, we were just 
looking at our stats--50 percent of all the kids that get to 
the 9th grade don't graduate through the 12th. Then we see 
something like a 30 to a 38 percent illiteracy rate even with 
people who graduate, which means that we have a lot of people 
who are in trouble. And these are the ones that--you know, I am 
talking about folk who--the ones who graduate, at least they 
stayed in school.
    But again, as I said, we in the Congress wrestle with where 
we fit in history and how our actions will be viewed years from 
now, and at the same time we want to make sure that we say to 
people to even go into the history, to go into the future.
    But I really do appreciate what you have said and thank you 
very much. I hope to visit your program. I want to do that.
    Just one question. Do you--I assume--does the House house 
people? In other words, do they come and visit or what?
    Mr. Fitzhugh. The House is after school, 3:15 to 7:30. We 
looked at doing some emergency shelter because we have had so 
many students who have had emergency shelter needs. But if our 
students found out that we were sponsoring emergency shelter, 
all of our students would be an emergency, because they love 
the experience of being in a place where they are endeared and 
they are loved.
    So, no, we don't house. The school is out at 3:15. Kids are 
at the door at 3:16. And we have to shoo them away at 7:30 to 
get home before it is gets crazy again.
    I think the other thing is that one of things that we try 
to do with our students, and we recognize that not only do they 
need a safe place, they also need to get a handle on their life 
track. And there is a way in which we can communicate that to 
this population.
    People talked at one time about their being an unchurched 
generation. And at one time, you know, we had a conversation 
among some of young ladies who were in certain situations and 
unwanted pregnancies, and young men who were not taking care of 
responsibilities.
    Well, these kids, you know--I have a young lady now who is 
pregnant. And my thought is, she is still a baby. But her mom 
was on crack when she was pregnant with her. And so we have 
digressed to the point now where we have the students who 
really don't have any mother at home, training that is helping 
them. So we are trying to build the creative means by which we 
can support every facet of these students' lives. They have 
very, very complex issues.
    We have had a lot of success because of our creativity of 
how we can communicate to this population. And I have a friend, 
a colleague in Chicago, who just started the House/Chicago. 
They meet once a month for a big event and during the week for 
smaller events. He said he has never seen this many kids turn 
out.
    But he has taken the elements of what we do. We found ways 
in which, creative ways, in which to get students plugged into 
activities, and along the way we realized we don't have to hit 
them over the head with a Bible, we don't have to force 
anything down their throat. Most of these students want to be 
valued, want to be encouraged, want to be directed, want to be 
loved, and want to be pointed in the right direction. And we 
don't know how that is going to unveil for all, each and every 
student.
    But the least we can do is, like I said, to create a moment 
for life change. Now, it might come at a midnight walk at a 
camp. That might come after school when you take a kid to get a 
cheeseburger. That might come when he is sitting down recording 
music or rapping a song. That might come in the sewing class we 
had.
    A lady said, I know how to sew, and we started a sewing 
class, called ``Making Stuff.''
    I don't know where that moment is going to come. But I 
think we have an obligation to find that moment. And I can't 
get the vision, the image of that movie Jaws out of my mind. 
When that police chief saw that shark for the first time, he 
said, ``We need a bigger boat.'' I don't care what kind of boat 
it is, we need a bigger boat. And I am looking to the mouth of 
the shark. I have seen things I had no idea I would ever see, 
and I have witnessed what these students are carrying that I 
had no idea that they were carrying these kinds of secrets.
    And there are institutions that are making an impact in 
those areas. And I think our challenge, as you mentioned, we 
have to find out how we fit right here. But we have an 
obligation to find that bigger boat; whatever that boat is, we 
have to find that boat for the welfare of this population.
    Mr. Cummings. Thank you very much. Thank you.
    I just want to move now to Ms. Hollman. Ms. Hollman, you 
said something. I know you have to go, Mr. Fitzhugh, thank you 
very much. We really appreciated it.
    Ms. Hollman, you said something that really triggered a 
thought in my mind that I guess I should have figured this out 
long ago. One of the things that we see over and over again 
that we don't seem to suffer here in this country, is this 
warning throughout the world based upon religion.
    And you said something. You said, we want to be careful 
that we do not divide our citizens along religious lines. And 
it is interesting that in our country we don't have, we don't 
see what we see around the world. I mean, I know this is a much 
broader question than what we are, I guess, kind of dealing 
with here, because we are dealing with where the rubber meets 
the road here.
    But is that a concern of yours, that eventually you can get 
there by this, what I call erosion, or the path we may be 
taking ourselves down? Are you following my question?
    Ms. Hollman. Yes, I am. I think that is a real danger. And 
that is why we continue to say these things over and over. I 
think about it every time I hear someone say, what this 
initiative really is about is funding what works.
    And I think--what has worked in America? And I think the 
first amendment has worked. I think we can look at the way we 
treat religion in this country as something that has been good 
for religion, so that religion has flourished and we have lived 
in relative peace with a tremendously diverse population of 
religious beliefs.
    I think some of the examples that you will see in the 
written testimony kind of point to how the faith-based 
initiatives can divide us along religious lines. Some of it was 
talked about today in how this is part of the political 
process. You have political people deciding which groups should 
be funded, which are essentially favored. And that is something 
that we have avoided, and I think it is something that we 
should be proud to have avoided and we have probably saved 
ourselves a lot of conflict that other places haven't.
    Mr. Cummings. You know, Mr. Diament, and then this will be 
my last comment, you know you said something. And I think it is 
directly corrected with what Ms. Hollman just said. I think 
that we would be naive if we did not realize how much politics 
plays in all of this.
    And I am not saying that you have been naive, because I 
think you hit this golden opportunity, then it kind of slipped 
away. But it is interesting that as I move around the country 
campaigning, and I go into African American communities, and I 
see something happening that is very interesting. And that is 
that there are areas that I normally as an African American 
would have been welcome to speak on behalf of a Democratic 
candidate, but because a church has received certain funding, I 
think, OK, I can't say--I check out the history--and usually 
this is the case--and they give credit not to the Democrats but 
to the Republicans for the faith-based initiative stuff.
    The next thing you know, I am not welcomed to speak. I 
don't, and it is very interesting. And I think that if--and so, 
you know, when you talk about this division based on--when you 
and Ms. Hollman talk about division on religious lines, I guess 
what happens is government creeps in, creeps into the faith-
based arena, and it gets a little murky there.
    Because I guess some of those folks are saying, look, you 
know, I think you, Mayor Goode, alluded to this, about how 
there are groups that have never gotten any funding before and 
now they are getting funding.
    We see, in my own State of Maryland, there is an article in 
the paper this morning that talks about how our Governor wants 
to establish an office of faith-based, but doesn't want to tell 
what it does. And the legislature is saying, OK, we can do 
that, but at least tell us what it is going to do, like every 
other department.
    And I just don't, I mean, I think there are so many--this 
thing becomes like a web after a while. And I don't know where 
this leads to. I think that we have to be very careful that we 
protect the Constitution, because as Ms. Hollman has said, we 
know certain things work. We know that.
    And we know--I think sometimes when we compare what happens 
in other countries around the world, we also see what doesn't 
work. And so we have a lot of competing interests, a lot of 
competing concerns and priorities. And I just think that we 
have to continue to try to wade through this so that we come 
out with the best result in the end.
    But you know, the bottom line still remains, I think, this 
whole concept of one life to live and how you do that in the 
now, but, at the same time, protecting your future. So I just 
want to thank you.
    I don't know if anybody has any comment on what I just 
said, but I really appreciate all of you and I really thank you 
for your testimony.
    Reverend Goode. I just had one point. And that is this; 
that you raise the issue of politics. And I would only simply 
say this: that a long time before the current President was in 
office, a lot of us were working on faith-based initiatives. 
And I don't think that the idea involving faith-based 
institutions with the solving of problems of people in 
neighborhoods started 3\1/2\ years ago. It started way before 
that.
    In fact, my own experience, going back to 1968, when I was 
going around the local churches, filling out applications for 
221(d)(3) and 204 and 203 applications and 2 applications to 
get housing for local churches who only had an idea that they 
wanted to do something about a vacant lot in that neighborhood. 
We are able to take that. And really with 50 separate 
congregations, we probably did using the 501(c)(3), about 2000 
housing units between 1966 and 1978.
    So I would only say to you that I know this is an election 
year. But we also have to be practical in terms of how are we 
going to help the people who live in our neighborhoods, in our 
zip codes, and I have opted from my own point of view to be 
practical about this and take the money from the government 
because it's really my money, too. I mean, you know, every time 
I see my pay check, I know it's my money too and I want to have 
a say in how my money gets spent.
    Mr. Souder. I want to thank each of you for your testimony. 
We'll probably have some additional written questions to draw 
this out because we have been doing a series of faith-based 
hearings where these issues, the legal issues come up. 
Generally speaking we have had almost 50/50. We have had 
hearings in Charlotte and San Antonio and Chicago and Colorado 
and Los Angeles, and practitioners disagree on where they would 
draw the lines on how to do it. We've mostly been trying to 
draw out what the activity at the grass roots level is on the 
faith-based, but this is going to be our defining hearing as 
far as some of the legal issues. So we may have some additional 
written questions. I appreciate that each of you have been 
major players in different parts.
    Clearly the faith-based initiative hasn't brought the 
religious conflict in America. All I have to do is find five 
Baptists in any city. They'll be in three different branches, 
at least, if not five, and I believe that we can at least reach 
consensus in a narrow frame, if not the fundamental part of 
direct government funding, and we need to build where we can 
find the consensus and then continue to debate at the edges.
    For example, in my opinion, and I want to state this for 
the record, the more important part, as I implied at the 
beginning, was the $500 credit which went down to $50 or some 
ridiculously low sum, and that we had a compromise worked out 
with key players that would have been able to move that earlier 
if we'd have focused on that part. And we need to be looking at 
how to make non-itemizers eligible to put their money into 
these churches and avoid some of the direct confrontation by at 
least agreeing on that. We had worked out compromises on the 
training that Bobby Scott and Chet Edwards and Jerry Nadler and 
Barney Frank and others who have been critics would allow those 
funds and would have supported if we can keep it out of the 
political arena, that to train faith-based organizations with 
their discrimination of association hiring intact as long as 
they weren't applying for government funds with that. But even 
that kind of consensus is going to breakdown if this becomes 
too political.
    Then at the margin, we have accepted as we have moved these 
pieces of legislation, sometimes as we moved a number of them 
to the chagrin as I accepted things like ``clear break,'' if 
there was going to be a prayer it had to be at least 5 minutes 
before the start of a program. It couldn't feel any pressure, 
maybe even farther from that, that there had to be a secular 
alternative. I know that there are disagreements as to what is 
the distance you can have. In my opinion, for example, in the 
first faith-based initiative we took out Head Start and some 
programs at least in distant areas where you wouldn't have 
choices. I think the majoritarian Christians, unlike those of 
us who came up in more smaller denominations, don't think of 
this as Christian being the minority and how would we feel if a 
seniors lunch program or a Head Start program you had to bow to 
Allah at the beginning, or you had another religion that isn't 
majoritarian. And we need to work through those sensitivities.
    At the same time, that all said, I still am concerned that 
there's not an understanding of the opponents of what passion 
motivates people to give extra time, extra contributions, and 
how many of these resource challenged groups, even if they can 
take non-itemized deductions, even if they have leaders like 
Reverend Goode, aren't going to be able to get the dollars they 
need and that these faith-based institutions whose integrity is 
critical in these urban areas should have access, if they'll 
follow the rules and if they're trained and if they have a 
501(c)(3) for these funds.
    It started in the areas of homelessness and AIDS, because 
nobody else would do it. And when this was done under Jack 
Kemp, and in the early 1980's there weren't a lot of questions 
because nobody would take care of people with AIDS, except for 
Christians who weren't afraid if they got it and they died 
their life would be ended because they had an after life. So 
nobody was asking a bunch of questions. And I still think that 
this idea that there is this kind of a giant secular position 
excludes and discriminates against some of us. But we need to 
be careful, those who argue for this faith-based initiative, 
that we don't suck religion in and that we protect the minority 
rights, because I don't think, from most of the consensus, that 
most Americans would agree with something that was said by Ms. 
Hollman, and that is all it takes is to look around the world 
and see that religious intolerance is a huge problem. And if 
the faith-based initiative exacerbates or promotes religious 
intolerance, it is not good either. But there also ought to be 
tolerance of those who do have deep faith and want to 
participate in the public arena without discrimination. And 
that balance is what we are trying to work through.
    So if any of you want to submit additional comments with 
this hearing, respond to the questions, this is hopefully going 
to be a good forum to carry that through. I thank each of you 
for your public debate and for your research. And with that the 
hearing stands adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5779.069

[GRAPHIC] [TIFF OMITTED] T5779.070

[GRAPHIC] [TIFF OMITTED] T5779.071

[GRAPHIC] [TIFF OMITTED] T5779.072

[GRAPHIC] [TIFF OMITTED] T5779.073

[GRAPHIC] [TIFF OMITTED] T5779.074

[GRAPHIC] [TIFF OMITTED] T5779.075

[GRAPHIC] [TIFF OMITTED] T5779.076

                                 <all>

</pre></body></html>
